No. 19-123

 

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, et al.,
Petitioners,

Vv.

CITY OF PHILADELPHIA, ef al.,
Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF OF THE LEADERSHIP CONFERENCE ON
CIVIL AND HUMAN RIGHTS, LAWYERS’
COMMITTEE FOR CIVIL RIGHTS UNDER LAW,
AND 28 OTHER ORGANIZATIONS AS AMICI
CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,720 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

Colin Casey ten

Wilson-Epes Printing Co., Inc.
